OIG Investigative Reports, Miami Business Woman Convicted of Tax Evasion
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
US Department of Justice
R. Alexander Acosta
United States Attorney
Southern District of FloridaFebruary 11, 2009
For more information contact:
99 N.E. 4 Street
Miami, FL 33132
(305)961-9001
Miami Business Woman Convicted of Tax Evasion
R. Alexander Acosta, United States Attorney for the Southern District of Florida, Betty N. Stewart, Acting Special Agent in Charge, Internal Revenue Service, Criminal Investigation Division, and Lester Fernandez, Special Agent in Charge, U.S. Department of Education, Office of Inspector General, announced that defendant Sorga Suarez, a/k/a Sorgalim Barzaga, a/k/a Sorgalim Sin Barzaga, a/k/a Sorgalim Valladares, a/k/a Lizette Valladares, a/k/a/ Lizette Solis, of Miami, was sentenced today by  U.S. District Court Judge Marcia Cooke to 48 months’ imprisonment, to be followed by 2 years of supervised release.  Suarez was convicted on October 17, 2008, on a charge of tax evasion.
According to court documents and evidence presented in court, Suarez owned and operated Business Etcetera, Inc. (BEI), a private for-profit company that was primarily funded by federal student loans and grants issued by the U.S. Department of Education.  BEI was located at 720 N.W. 27th Avenue, in Miami.  During calendar year 2001, Suarez received taxable income of more than  $1,000,000 and owed a substantial amount of income tax to the Internal Revenue Service (IRS). Suarez, however, failed to file an income tax return for calendar year 2001.  In addition, she concealed from the IRS the nature and extent of her assets and her true income by having her company, BEI, pay her personal expenses and then falsely classifying the expenditures in corporate accounting records as deductible expenses of the corporation.
Mr. Acosta commended the investigative efforts of the U.S. Department of Education and the Internal Revenue Service, Criminal Investigation Division.  This case was prosecuted by Assistant United States Attorney Lois Foster-Steers.
A copy of this press release may be found on the website of the United States Attorney's Office for the Southern District of Florida at www.usdoj.gov/usao/fls
Top
Printable view
Share this page
Last Modified: 02/12/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov